U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Nevia Abraham v. United States, No. 20-7634
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 29,
2021. Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due, after two extensions, on July 19, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to
and including August 18, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7634
ABRAHAM, NEVIA
USA

GAIL SMITH STAGE
FEDERAL PUBLIC DEFENDER, SOUTHERN
DISTRICT OF FLORIDA
1 EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-640-7130

